UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1903
United States of America
Plaintiff - Appellee
v.
William Charles Graham
Defendant - Appellant
Appeal from U.S. District Court for the District of Minnesota
(0:19-cr-00185-SRN-2)
JUDGMENT
Before GRUENDER, SHEPHERD, and GRASZ, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a). All other issues raised in appellant’s appeal are dismissed.
June 04, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1903

Page: 1

Date Filed: 06/04/2020 Entry ID: 4919986

* Appevtdi'X k "

CASE 0:19-cr-00185-SRN-KMM Document 213 Filed 06/18/20 Page 1 of 5

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,

File No. 19-CR-185
(SRN/KMM)

Plaintiff,
v.

ORDER

William Charles Graham (02),
Defendant.

Amber Brennan, Justin Wesley, and Nathan Nelson, United States Attorney’s Office, 300
South Fourth Street, Ste. 600, Minneapolis, MN 55415, for the Government
William Charles Graham, Reg. No. 22097-041, Sherburne County Jail, 13880 Business
Center Dr. NW, Elk River, MN 55330, Pro Se Defendant
Andrew Mohring, Office of the Federal Defender, 300 S. 4th St., 107 U.S. Courthouse,
Minneapolis, MN 55415, Standby Counsel for Defendant

SUSAN RICHARD NELSON, United States District Judge
This matter is before the Court on the Motion to Quash the Indictment [Doc. No. 195]
filed by Pro Se Defendant William Charles Graham. For the reasons set forth below, the
Court denies as moot Graham’s Motion to Quash the Indictment.

I.

BACKGROUND
On July 16, 2019, the Government charged Graham and co-defendant Ronald
J* NOT

Jennaine Jackson with interference with commerce by robbery in violation of 18 U.S.C. §
1951(b)(1), (Indictment [Doc. No. 1]), Count 1), and using, carrying, and brandishing a
firearm during and in relation to a crime of violence in violation of 18 U.S.C. §

CASE 0:19-cr-00185-SRN-KMM Document 213 Filed 06/18/20 Page 2 of 5

924(c)(l)(A)(ii). (Id., Count 2.) The Government alleges that in April 2019, Graham and
Jackson robbed a T-Mobile store in Brooklyn Park, Minnesota, using a firearm in the
course of the robbery. (Id, Counts 1 & 2.)
Graham filed the instant motion on April 27, 2020. He raises numerous
constitutional violations, based on the following: (1) there is no properly issued Fourth
Amendment warrant stating that probable cause exists, nor is there an oath, affirmation, or
judicial signature, nor is there a particularized statement of the person or place to be
searched and the items to be seized; (2) the Indictment is unlawful and must be quashed
because it fails to advise him of the charges against him, and lacks proper signatures from
the grand jury foreperson and a government attorney; (3) he has been unlawfully detained,
held in involuntary servitude, and cruelly and unusually punished since his arrest due to
the unlawful warrant and Indictment; and (4) he has been denied access to the Court.
(Def.’s Mot. at 1-4.)
Two days after filing this motion, Graham filed an interlocutory appeal with the
Eighth Circuit Court of Appeals, challenging the Court’s April 7, 2020 Order [Doc. No.
183]. He asserted that he was denied access to the Court and that the Indictment was not
properly signed by an attorney for the Government. (Def.’s Notice of Appeal [Doc. No.
199] at 2.) On June 4, 2020, the Eighth Circuit rejected Graham’s arguments and affirmed
the Court’s April 7 Order. (8th Cir. Judgment, United States v. Graham, No. 20-1903
[Doc. No. 209].)
Recently, the Court responded to motions raised by Graham’s co-defendant, Mr.
Jackson, who had asserted some arguments that are identical to those raised by Graham
2

CASE 0:19-cr-00185-SRN-KMM Document 213 Filed 06/18/20 Page 3 of 5

here. (June 12, 2020 Order [Doc. No. 211].) The Court therefore incorporates its ruling
on Mr. Jackson’s motions by reference here.
n.

DISCUSSION
A. Probable Cause
As to Graham’s claims about the infirmity of a warrant, or the lack of a warrant stating

that probable cause exists, the Court has previously rejected this argument. (Feb. 10, 2020
Order [Doc. No. 130] at 5-6, aff’d, Feb. 27, 2020 Order [Doc. No. 141] at 2.) Graham
presents no new information that alters the Court’s prior rulings. Accordingly, Graham’s
Motion to Quash the Indictment on this basis is denied as moot.
B. Indictment
Graham argues that the Indictment fails to advise him of the nature of the charges
against him and is also procedurally infirm due to a redacted signature of the grand jury
foreperson and because the “Asst. U.S. Attorney cannot sign their own name on ANY
Indictment, especially not in their personal natural person capacity.” (Def.’s Mot. at 4.)
The Court has previously considered these arguments and rejected them, (Feb. 10,
2020 Order at 5-6, affd, Feb. 27, 2020 Order at 2), and the Eighth Circuit has rejected the
argument, raised on interlocutory appeal, that the Indictment is procedurally improper. (8th
Cir. Judgment, United States v. Graham, No. 20-1903, at 1.) Contrary to Graham’s
argument (Def.’s Mot. at 2), the Indictment clearly and plainly states the “nature and cause”
of the charges against him, and it was properly issued. {See Feb. 10,2020 Order at 4-6, aff’d,
Feb. 27, 2020 Order at 2; 8th Cir. Judgment, United States v. Graham, No. 20-1903, at 1.)
Further, the Court directs Graham to the June 12 2020 Order in response to nearly identical
3

CASE 0:19-cr-00185-SRN-KMM Document 213 Filed 06/18/20 Page 4 of 5

arguments raised by his co-defendant. The same analysis and conclusion apply here.
Accordingly, Graham’s Motion to Quash the Indictment based on any infirmities in the
Indictment is denied as moot.
C. Detention
Regarding Graham’s claim that the arguments presented above caused his unlawful
detention, “involuntary servitude,” and “cruel and unusual punishment,” (see Def.’s Mot. at
3-4), the Court rejects any such contentions. Graham has previously challenged his detention,
arguing that he is being held without probable cause, (Def.’s Mar. 16, 2020 Letter to Chief
Judge Tunheim [Doc. No. 161] at 3; Def.’s Mar. 23, 2020 Letter to Marshal [Doc. No. 167]
at 1-2), and is suffering from cruel and unusual punishment. (Def.’s Mar. 24, 2020 Letter
[Doc. No. 170] at 2.) The Court has previously found that Graham was validly detained, and
rejected his arguments for release based on the validity of detention and the conditions of
detention. (Apr. 7, 2020 Order at 10, 18-20.) Accordingly, the Court denies as moot his
motion based on detention and the conditions of detention.
D. Access to Courts
Graham also moves to quash the Indictment, arguing that a February 19, 2020
evidentiary hearing was arbitrarily canceled, denying him access to the Court and violating
his due process rights. (Def.’s Mot. at 3.) The hearing was canceled because the magistrate
judge was able to rule on the pretrial motions based on the parties’ filings, without the need
for an evidentiary hearing. (Feb. 10, 2020 Order at 5.) At least twice, Graham previously
appealed the cancelation of the hearing, (Def.’s Obj. [Doc. No. 137] at 7-8; Def.’s Mar. 13,
2020 “Rebuttal” [Doc. No. 158] at 1-3), and the Court has twice rejected his argument. (Feb.
4

CASE 0:19-cr-00185-SRN-KMM Document 213 Filed 06/18/20 Page 5 of 5

27, 2020 Order at 2; Apr. 7, 2020 Order at 17.) Graham’s motion, based on his argument
regarding the canceled February 19,2020 hearing, is denied as moot.
To the extent that Graham more broadly seeks an evidentiary hearing, the Court has
likewise ruled on his past requests for a hearing. (May 20,2020 Order [Doc. No. 204] at 2.)
The Court has explained that due to the COVID-19 pandemic, Chief Judge John R.
Tunheim has continued all criminal trials in this District through July 5, 2020, (id. at 1-2)
(citing D. Minn. Gen. Order No. 14 If 2), and advised Graham that his in-person pretrial
conference will be held at a time when it safe to convene, after July 5. (Id.) In addition,
Graham unsuccessfully raised the issue of “access to the Court” in his interlocutory appeal,
(Def.’s Notice of Appeal at 2), which the Eighth Circuit rejected. (8th Cir. Judgment, United
States v. Graham, No. 20-1903, at 1.) Accordingly, this argument fails and is denied as
moot.
In short, Graham’s Motion to Quash revisits past arguments and rulings, without any
grounds to do so.

THEREFORE, IT IS HEREBY ORDERED THAT:
1. Defendant’s Pro Se Motion to Quash [Doc. No. 195] is DENIED AS MOOT.

Dated: June 18, 2020

s/Susan Richard Nelson
SUSAN RICHARD NELSON
United States District Judge

5

CASE 0:19-cr-00185-SRN-KMM Document 130 Filed 02/10/20 Page lot 6

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,

Case No. 19-cr-185(2) (SRN/KMM)

Plaintiff,
v.

ORDER

William Charles Graham (2),
Defendant.
Justin A. Wesley and Amber M. Brennan, Assistant United States Attorneys, United
States Attorney’s Office, 300 South Fourth Street, Suite 600, Minneapolis MN 55415
(for the Government);
William Charles Graham, Reg. No. 22097-041, Sherburne County Jail, 13880 Business
Center Drive Northwest, Elk River MN 55330 (pro se Defendant); and Andrew H.
Mohring, Assistant Federal Defender, Office of the Federal Defender, 300 South Fourth
Street, Suite 107, Minneapolis MN 55415 (standby counsel for pro se Defendant).

This matter is before the Court, United States Magistrate Judge Katherine M.
Menendez, on the parties’ non-dispositive pretrial motions. Based upon the record, motions
and memoranda, and the arguments in the parties’ respective filings, IT IS HEREBY
ORDERED as follows:
1.

The Government’s Motion for Discovery Pursuant to Federal Rules of
Criminal Procedure 16(b), 12.1, 12.2, 12.3 and 26.2, (ECF No. 32), is
GRANTED as follows: The Government seeks discovery pursuant to
pursuant to Fed. R. Crim. P. 12.1, 12.2, 12.3, 16, and 26.2, including
documents and tangible objects, reports of examinations and tests, expert
testimony, notice of alibi defense, notice of insanity or mental illness
defense, notice of public authority defense, and witnesses statements.
Defendant has not specifically objected to the motion and the Government
seeks discovery available to it under the Federal Rules of Criminal
Procedure. Thus, the Government’s motion is granted; Defendant shall

ilpp\4h< & lt

CASE 0:19-cr-00185-SRN-KMM Document 130 Filed 02/10/20 Page 2 of 6

comply with his obligations under the Federal Rules of Criminal Procedure
by providing the requested discovery and information concerning defenses.
2.

3.

The Government’s Motion for Protective Order, (ECF No. 112), is
GRANTED as follows: The Government moves, pursuant to Rule 16(d)(1),
for a protective order to govern the distribution of police body camera
footage involved in this case. Mr. Graham filed an objection to the motion
on the grounds that he did not submit it and it was submitted by “an unknown
source.” (ECF No. 120).
Under Rule 16, the Court may, at any time, “deny, restrict, or defer
discovery or inspection, or grant other appropriate relief’ for good cause.
Fed. R. Crim. P. 16(d)(1); United States v. Lee, 374 F.3d 637, at 652 (8th Cir.
2004).” The burden of showing ‘good cause’ is on the party seeking the
order” and courts consider, inter alia, the safety of witnesses and others and
particular danger of perjury or witness intimidation. United States v.
Cordova, 806 F.3d 1085, 1090 (D.C. Cir. 2015). A protective order should
permit “disclosure in a manner sufficient to facilitate preparation of a
competent defense.” United States v. Johnson, 191 F.Supp.3d 363, 373
(M.D. Pa. 2016).
The Government notes that the police body camera footage contains
various sensitive information, including names and identities of crime
victims, witnesses, defendants, law enforcement officers, and other members
of the public. Having reviewed the police body camera footage in relation to
Mr. Graham’s co-defendant’s suppression motions, {see ECF No. 92), the
Court agrees. Mr. Graham has offered no substantive objection to the
Government’s request and the Court finds that the Government has
demonstrated good cause permitting entry of a protective order to govern the
distribution of the police body camera footage in this matter. As such, the
Court will enter the proposed protective order via separate order.
Defendant’s Notice for Notice of Demand to Produce, (ECF Nos. 119, 122),
is GRANTED IN PART and DENIED IN PART as follows: Mr. Graham
makes various demands in his motion. The Court addresses each in turn.
First, Mr. Graham demands the “file that pertains directly to any and
all information from the Grand Jury ...” as “exculpatory evidence.” (ECF
No. 119, at 1; ECF No. 122, at 1). Mr. Graham appears to assert that the
docket sheet does not reflect that any Grand jury proceeding occurred
because there are no minutes on the record. (ECF No. 119, at 2; ECF No. 122,
at 2). Mr. Graham also requests “the contract signed by [him]self ’ that “gave
up [his] Constitutional Rights without being forced put under mass duress,
or where [he] voluntarily wa[i]ved [his] Grand Jury hearing.” (ECF No. 119,
at 2; ECF No. 122, at 2).

2

^
y.W^°-‘T’r

5^-'*

c

CASE 0:19-cr-00185-SRN-KMM Document 130 Filed 02/10/20 Page 3 of 6

tow*

circUtM«v

v°*t

kfwe asJl
is i
f\Q

W

Wo
V» K'Afi -

As evidenced by the indictment a grand jury charged Mr. Graham
with two crimes. (ECF No. 1; ECF No. 2-1 (signature page)). There are no
minutes of the grand jury proceeding on the public docket because grand jury
proceedings are secret and disclosure is restricted. Fed. R. Crim. P. 6(e).
Moreover, a defendant “has no absolute right to appear before the grand jury
that is investigating him or to have his counsel present.” United States v.
Smith, 552 F.2d 257, 261 (8th Cir. 1977). Thus, to the extent Mr. Graham
asserts various grand jury errors entitle him to relief, his motion is denied.
Mr. Graham asserts that some grand jury information may be
exculpatory. Release of grand jury materials is governed by Rule 6(e)(3). For
a defendant to obtain grand jury materials, they must show “a ground may
^
exist to dismiss the indictment because of a matter that occurred before the -y
^^
grandjury.” Fed. R. Crim. P. 6(e)(3)(E)(ii). A defendant must demonstrate a
for a
particularized need for the information: that is, a demonstrative of specific
evidence of prosecutorial overreaching. United States v. Finnt9l9 F. Supp.
1305,1326 (D. Minn. 1995) (citations omitted). Except as discussed below,
Mr. Graham has made no such showing. As such, his motion is denied.
To the extent grand jury materials contain exculpatory information,
the Government is obligated to provide said materials under Brady v.
Maryland, 373 U.S. 83 (1963), Giglio v. United States, 405 U.S. 150 (1972),
and their progeny. The. Government indicates it is aware of its obligations
under these authorities and has represented to the Court that it has and will
continue to comply with said obligations; the Government notes it believes
none of the grand jury materials are encompassed by Brady. (ECF No. 129,
at 3). Therefore, within 10 days of the date of this Order the Government
must disclose all Brady information in its possession or of which it has
become aware as of the date of this Order and must promptly supplement its
disclosure upon receipt of any additional Brady information not previously
disclosed.
To the extent Mr. Graham generally requests grand jury transcripts, it
is denied. “The Jencks Act requires that the prosecutor disclose any statement
of a witness in the possession of the United States which relates to the subject
testified to_hy_the_witness_orLdirect_examination.” United States v. Douglas,
964 F.2d 738,741 (8th Cir. 1992). It follows that statements contained within
grand jury transcripts could constitute Jencks Act materials. United States v.
Eisenberg, 469 F.2d 156, 160 (8th Cir. 1972). “Although the United States
need not produce Jencks statements prior to a witness’ testimony on direct
examination, the United States may agree to early discovery of Jencks
material.” Douglas, 964 F.2d at 741 n.2. Therefore, the Court does not order
production of Jencks materials at this time, but it expects the Government to
provide Jencks Act materials as agreed so as to prevent delays in trial. -stvvU W*c«*1 s\s*v.
o*K« fW Vveo-w.a |
i* wmpVifc, W*
'♦wtww? **involve4
3

CASE 0:19-cr-00185-SRN-KMM Document 130 Filed 02/10/20 Page 4 of 6

Second, Mr. Graham requests “the legislative act and its
implementing regulations that precipitated this case.” (ECF No. 119, at 2;
ECF No. 122, at 2). As the indictment describes, Mr. Graham is charged with
one count of interference with commerce by robbery in violation of 18 U.S.C.
§§ 1951(b)(1), 1951(b)(3), as well as 18 U.S.C § 2 (aiding and abetting).
(ECF No. 1, at 1-2). Mr. Graham is also charged with one count of using,
carrying, and brandishing a firearm during and in relation to a crime of
violation in violation of 18 U.S.C. § 924(c)(l)(A)(ii), as well as 18 U.S.C § 2
(aiding and abetting). (ECF No. 1, at 2). Finally, the indictment asserts
convictions may result in forfeiture pursuant to 18 U.S.C §§ 981(a)(1)(C),
924(d)(1), 28 U.S.C. § 2461(c), and 21 U.S.C. § 853(p). (ECF No. 1, at 23).
wW> •*
Third, Mr. Graham makes various requests related to his Sovereign
Citizen beliefs.1 He demands copies of the oaths of office of the undersigned
United States Magistrate Judge, the United States Attorney for the District of
Minnesota, and the two Assistant United States Attorneys prosecuting this
case. (ECF No. 119, at 2; ECF No. 122, at 2). He demands the “address of
the office where [he] may go to get a license for practicing law.” (ECF
No. 119, at 2; ECF No. 122, at 2). Mr. Graham demands the contact
information of the aforementioned judge and prosecutors. (ECF No. 119, at
2; ECF No. 122, at 2). He likewise demands their “bond number and bonding
company.” (ECF No. 119, at 2; ECF No. 122, at 2). Finally, Mr. Graham
demands “an acknowledgement that [the aforementioned judge and
prosecutors] understand [they] have perjured [their] Oath of Office and are
committing Treason against the Constitution of the United States of America
and the American Peace Flag.” (ECF No. 119, at 2; ECF No. 122, at 2).
1 As explained by the Federal Bureau of Investigation (“FBI”), the “Sovereign Citizens” movement is
based on a theory where they view the “USG [U.S. Government] as bankrupt and without tangible assets;
therefore, the USG is believed to use citizens to back U.S. currency. Sovereign citizens believe the USG
operates solely on a credit system using American citizens as collateral.” El v. AmeriCredit Fin. Servs.,
Inc., 710 F.3d 748, 750 (7th Cir. 2013) (citation omitted); see also Cooper v. United States, 104 Fed. Cl.
306, 313-314 (2012) (explaining that “an individual who identifies with the Sovereign Citizen Movement
considers himself to be his own sovereign, not a United States citizen, and therefore ‘believe[s] that [he
is] not subject to government authority.’ Gravatt v. United States, 100 Fed. Cl. 279, 282 (2011). Members
of this movement think that [t]he federal government... has tricked the populace into becoming U.S.
citizens by entering into ‘contracts’ embodied in such documents as birth certificates and social security
cards. With these contracts, an individual unwittingly creates a fictitious entity (i.e., the U.S. citizen) that
represents, but is separate from, the real person. Through these contracts, individuals also unknowingly
pledge themselves and their property, through their newly created fictitious entities, as security for the
national debt in exchange for the benefits of citizenship.”); Sochiav. Federal-Republic's Cent. Gov’t,
2006 WL 3372509, at *5 (W.D. Tex. Nov. 20, 2006) (collecting cases and describing plaintiffs
“sovereign citizen” theories as “frivolous” and “rejected by every federal court that has considered
them”).
4

7

,

CASE 0:19-cr-00185-SRN-KMM Document 130 Filed 02/10/20 'Page 5 of 6

H jvf wjtW ^4^?'^-; h
ty f"
!&4
^

1

Sovereign Citizen arguments have been repeatedly and soundly
rejected by all courts that consider them, and therefore, require no analysis.
See, e.g., United States^Vfonassen, 759 F.3d 653, 657 n.2 (7th Cir. 2014)
(providing that Sovereign Citizen arguments can take many titles, but at their
core “assert that the federal government is illegitimate and insist that they are
not subject to its jurisdiction. The defense has no conceivable validity in
American law.” (quoting United States v. Schneider, 910 F.2d 1569, 1570
(7th Cir. 1990))); United States v, Sileven, 985 F.2d 962, 970 (8th Cir. 1993).
(finding similar arguments that defendant was not a federal citizen “plainly .
frivolous” and noting that further discussion was unnecessary); United States
v. Jagim, 978 F.2d 1031, 1036 (8th Cir. 1992) (sovereign citizen arguments
“are completely without merit, patently frivolous, and will be rejected
without expending any more of this Court’s resources on their discussion.”).
Nonetheless, Mr. Graham already clearly has the contact information of the
prosecutors and Court as evidenced by his numerous certificates of service.
(E.g., ECF Nos. 124, 127-1). The other requests in Mr. Graham’s motion
merit no further comment or analysis and are denied.

Fourth, Mr. Graham has submitted what he purports to be a
“Copyright Notice” as to his name. (ECF No. 122-1; ECF No. 99-1; see also
ECF Nos. 123, 128). A person generally may not copyright or trademark
. their own name. 37 C.F.R. § 202.1(a). Regardless, the existence of a
copyright or trademark “would not prevent n. court from exercising ->
jurisdiction over a civil or criminal matter.’’ Payne v. Kilda,2016 WL
491847, at *3 (E.D. Mich. Jan. 6,2016), report and recommendation adopted
by 2016 WL 465486, at *1 (E.D. Mich. Feb. 8, 2016); see also Osorio v.
Connecticut, 2018 WL 1440178, at *6-*7 (D. Conn. Mar. 22, 2018)
(rejecting Sovereign Citizen copyright claims on his name as frivolous);
Miles v. United States , 2014 WL 5020574, at *3-* 4 (Fed. Cl. Oct. 6, 2014)
(same). As such, to the extent Mr. Graham requests relief under a purported
assertion of copyright, it is denied.
5*

Because this Court could rule on all pending motions without the need
for an evidentiary hearing, the pretrial motions hearing scheduled for
$>\ig ftsc# February 19, 2020 at 1:00 p.m., (ECF No. 118, at 3^1), is CANCELLED. ’
Vi-naji'JA
4.

Mr. Graham challenges his detention through several filings. (ECF No. 127;
ECF No. 119, at 2; ECF No. 122, at 2). Mr. Graham also demands a
detention/bail hearing on his arguments. (ECF No. 127). Mr. Graham asserts
there is no “properly drawn Fourth Amendment warrant... [that states] that
probable cause exists ....” (ECF No. 119, at 2; ECF No. 122, at 2). Mr.
Graham asserts that because he is being detained without a warrant and “true
bill returned by a Grand Jury,” he is being held in violation of his First,
5

